In The
Supreme Court of The United States

BRIAN DALE LEE

*

vs.
UNITED STATES

*
*

No.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The appellant, BRIAN DALE LEE, by and through his appointed counsel,
Naki Richardson-Bax, respectfully requests leave of this Court to proceed herein in
forma pauperis in accordance with the provisions of 28 U.S.C. §1915 and Rule 39 of
this Court.
Please note the undersigned counsel did represent the appellant in the
proceeding before the United States Court of Appeals for the Fourth Circuit. The
undersigned’s representation was by way of appointment pursuant to the Criminal
Justice Act, 18 U.S.C. §3006A.

1

The petition for a writ of certiorari to the Supreme Court of the United States
accompanies this motion.

Originally known as the Criminal Justice Act of 1964; now titled as Criminal
Justice Act Revision of 1986.
1

1

Date: February 12, 2021

Respectfully submitted,
s/_Naki Richardson-Bax
FEDERAL ID #: 10809
The Bax Law Firm
10 Sams Point Way
Suite B-1, PMB 138
Beaufort, SC 29907
Phone: (843) 522-0980
Fax: (843) 379-3115
Attorney For Petitioner

2

